<html>
<title> - FEDERAL LEADERSHIP BY EXAMPLE IN ENERGY CONSERVATION - NO COST QUICK AND EASY STEPS FOR IMMEDIATE RESULTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  FEDERAL LEADERSHIP BY EXAMPLE IN ENERGY CONSERVATION - NO COST QUICK 
                  AND EASY STEPS FOR IMMEDIATE RESULTS 

=======================================================================

                                (110-62)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                     U.S. GOVERNMENT PRINTING OFFICE

36-796 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




































             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY, Pennsylvania  Virginia
TIMOTHY J. WALZ, Minnesota           CHARLES W. DENT, Pennsylvania
STEVE COHEN, Tennessee               JOHN R. `RANDY' KUHL, Jr., New 
JAMES L. OBERSTAR, Minnesota         York
  (Ex Officio)                       JOHN L. MICA, Florida
                                       (Ex Officio)

                                 (iii)



























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Grone, Phil, Deputy Undersecretary of Defense, Installations and 
  Environment, Department of Defense.............................     8
Lipinski, Hon. Dan, a Representative in Congress from the State 
  of Illinois....................................................     4
Stanley, Neil, Chief of Staff/Acting Associate Director of 
  Energy, District of Columbia Department of the Environment.....     8
Walraven, Brenna S., RPA, CPM, Chairman-Elect, Building Owners 
  and Managers Association International.........................     8
Winstead, David L., Commissioner, Public Buildings Service, U.S. 
  General Services Administration................................     8

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Matsui, Hon. Doris O., of California.............................    47

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Grone, Philip W..................................................    49
Walraven, Brenna.................................................    60
Winstead, David L................................................    73

                       SUBMISSIONS FOR THE RECORD

Grone, Phil, Deputy Undersecretary of Defense, Installations and 
  Environment, Department of Defense:

  Response to question from Rep. Norton..........................    30
  Response to question from Rep. Norton..........................    36
  Response to question from Rep. Norton..........................    38
  Response to question from Rep. Norton..........................    42
  Response to question from Rep. Norton..........................    44
Walraven, Brenna S., RPA, CPM, Chairman-Elect, Building Owners 
  and Managers Association International, slide displays on 
  Energy Star....................................................    71
Winstead, David L., Commissioner, Public Buildings Service, U.S. 
  General Services Administration, Memorandum for Assistant 
  Regional Administratiors, PBS, on Presidential Directive on 
  Energy and Fuel Conservation by Federal Agencies...............    91

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  HEARING ON FEDERAL LEADERSHIP BY EXAMPLE ON ENERGY CONSERVATION: NO 
            COST QUICK AND EASY STEPS FOR IMMEDIATE RESULTS

                              ----------                              


                        Thursday, July 19, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [Chairman of the Subcommittee] presiding.
    Ms. Norton. The Subcommittee will come to order.
    You will notice I delayed starting the Subcommittee hearing 
until we let the sunlight in. This is a Subcommittee hearing on 
energy conservation. It is focusing on ways to conserve before 
our very eyes.
    Before our eyes is the natural sunlight except that in 
every Committee room in the House of Representatives, we block 
out the sun and depend upon these lights. I have asked that 
these lights be turned down and that we rely on natural 
sunlight to the extent possible.
    I am also seeking to experiment to see whether the camera 
which records our hearings can see with the natural sunlight, 
the way we do when we watch television. We sit in our offices 
and watch television. I don't see anybody turning off the 
lights. Television comes into our house, and it doesn't say we 
can't record you unless you turn out the sunlight. In fact, 
they tell us sometimes to come out into the sunlight.
    We are trying to begin by practicing what we preach, 
particularly since this is a hearing on Federal Leadership by 
Example on Energy Conservation: No Cost Quick and Easy Steps 
for Immediate Results.
    I am pleased to welcome our panel and others who are here 
today for this first in a series of hearings that could be 
entitled Greening the Federal Sector. We have selected a 
somewhat more serious and descriptive title that I have just 
indicated.
    The title reflects our impatience with this Country's pace 
in confronting the national and international energy crisis 
that is proceeding at a breathtaking pace while the world 
stares with open mouths. Yet, we already know of uncomplicated 
ways to proceed that will cost little or nothing while 
producing big dividends in energy savings including gas, 
electricity, oil, air conditioning, water and all the rest. We 
begin a more aggressive pursuit of these methods today.
    According to a September, 2006, Department of Energy 
report, the public and private building sector together account 
for an amazing 39 percent of total U.S. energy consumption, 
more than both the transportation and industry sectors.
    Even more surprising, public and private sector buildings 
like those under our Committee-Subcommittee jurisdiction are 
responsible for 71 percent of U.S. electricity consumption. 
These buildings in the United States alone account for 9.8 
percent of carbon dioxide emissions worldwide.
    U.S. buildings are responsible for nearly the same amount 
of carbon emissions as all sectors of the economies of Japan, 
France and the United Kingdom combined. The Federal Government 
is the world's single largest energy consumer and the more 
prolific in wasting energy in the world today.
    Yet, for years, our Government has pursued and achieved 
energy savings that demonstrate that we are capable of moving 
with far greater results. Primary energy use by the Federal 
Government, for example, fell by 13 percent during the past 20 
years with a 25 percent decrease in energy costs in real terms 
despite a 27 percent increase in fuel prices in the U.S. in 
2005. We will learn today how these results were achieved and 
how to build on them.
    The first obligation of Congress in achieving energy 
savings is not big spending on energy technology but moving in 
earnest to conservation measures, many of which exist on paper 
right now, on Federal paper right now, and providing the 
appropriate incentives and authority to enforce these measures. 
Both common sense and Federal budget constraints require a 
focus first on energy conservation methods at home where we 
live, where we work.
    This Subcommittee has jurisdiction over General Services 
Administration activities and programs as the property manager 
for the Federal Government.
    GSA itself owns 1,500 Federal buildings comprising over 175 
million square feet of space. The Agency leases another 7,100 
buildings with a total rentable area of over 176 million square 
feet of space. Because GSA is a leaseholder for the vast 
majority of office space controlled by the Federal Government, 
that Agency also can play a pivotal in energy conservation for 
the private sector as well.
    The Department of Defense also owns and manages a huge 
portfolio of real estate assets including military housing, 
military bases, maintenance and operation centers, community 
facilities, hospitals, troop mess and housing facilities and on 
and on.
    DOD real estate assets amount to just over 2 billion square 
feet of space with a replacement value of $653 billion.
    Although our Subcommittee does not have jurisdiction over 
DOD facilities, we hope that what we develop in no and low cost 
energy savings ideas and methods of enforcement will help 
upgrade DOD approaches and implementation as well.
    Federal energy savings between 1983 and 2005 demonstrated 
that the Federal Government is moving in the right direction. 
The most important need today is to quicken the pace of 
conservation and savings and put teeth in what is being done. 
Executive Order 13423 already requires a 3 percent reduction in 
energy use intensity annually and a 2 percent annual water 
reduction intensity. There is evidence that these and other 
targets are being met, but there is little infrastructure, 
authority and accountability.
    Most of the Federal opportunities for energy conservation 
and savings are familiar and small, but together they have 
large potential in the hands of a major real estate owner and 
manager like the Federal Government: turning off non-essential 
lights in office space after certain hours, powering down 
printers, computers and copy machines, avoiding running large 
machines during peak hours, buying ENERGY STAR products and 
fluorescent light bulbs and many, many other easy energy saving 
steps. These simple no cost or inexpensive measures provide 
immediate savings with little or no added capital cost.
    Some States have taken admirable leadership in energy 
conservation policy. Utah's Energy Savings in State Buildings 
Act requires the Utah Division of Facilities, Construction and 
Management to develop incentives to encourage State entities to 
conserve energy and reduce energy costs.
    Virginia requires agencies to pursue energy savings 
activities whose costs are recoverable in one fiscal year.
    Among Nevada's most interesting energy approaches is the 
requirement to implement short term measures that require only 
consistent procedural changes and daily habit modification and 
another requiring short term measures which can be implemented 
by State agencies within the present fiscal year to reduce or 
limit energy usage and plan for energy conservation without new 
legislation and within existing budget constraints.
    To do our part as perhaps the largest office space holder 
in the world and to become a leader in the field of office 
space energy conservation, we will need to codify what 
precisely is expected of agencies and of personnel who will be 
held responsible.
    In addition, for the first time, we who serve on this 
Subcommittee will have a formidable responsibility ourselves to 
engage in rigorous oversight of energy use and conservation in 
the Federal sector as if our lives depended on it. As a matter 
of fact, the life of the planet does.
    I am pleased now to hear from our Ranking Member in 
substitution but please to have her in fact, Mrs. Capito.
    Mrs. Capito. Thank you. Thank you, Madam Chair, for holding 
today's hearing on energy conservation, and I appreciate the 
opportunity to hear witnesses talk about simple, yet effective, 
steps we can take to reduce our energy usage and reduce 
taxpayer dollars.
    I would like to welcome our colleague and our Committee 
Member, Mr. Dan Lipinski. I know you have a strong interest in 
this matter, and I look forward to hearing your statement.
    We will also be hearing from some other experts who can 
help us find those quick, cost-free and efficient ways to save 
energy in all of our Government buildings.
    To put this in perspective, I think the Chairwoman has 
alluded to many of the statistics, but the buildings in this 
Country consume--I didn't realize this--40 percent of the total 
energy in the United States and 70 percent of the electricity. 
We will hear about how even small reductions in the energy 
consumed by these buildings can have a large cumulative effect.
    You mentioned turning out the lights at night. It does 
always amaze me, being brought up in a house where you were 
supposed to turn the light out of every room every time you 
leave, and when you leave at night these buildings many times 
are lit up. You can even see the TVs going in the windows, and 
the lights are on as well. I think we need to all be cognizant 
of at what cost we are doing this.
    I hope our witnesses can discuss how these initiatives can 
be combined with comprehensive energy savings strategies for 
specific buildings and building complexes. GSA, in particular, 
its mission is to help its client agencies meet their 
environmental obligations. GSA has made significant investments 
in energy saving solutions and has achieved a 30 percent 
reduction in energy consumption by the Energy Policy Act of 
1992.
    In the past, GSA was eager to demonstrate energy 
conservation and acquired the services of Pepco Energy Services 
to serve as a general contractor and project manager of the 
GSA's new photovoltaic system. This solar generating 
electricity provides power for the central cooling plant at the 
Suitland Federal Center. I hope we can hear a little bit more 
about that.
    The Defense Department has also sought Pepco's advice when 
it had to cut greenhouse emissions by 30 percent in the 
military district of Washington. The DOD was advised to change 
lighting fixtures, install cold climate windows and retrofit 
the cooling system among other things. These small but 
important changes amounted to over 200 million in energy 
savings over the contract term.
    I hope our witnesses will address the comprehensive energy 
savings procedures and, with their advice, one day we hope to 
be able to obtain a cleaner and more efficient Federal 
Government.
    I look forward to hearing from our witnesses and thank you 
again, Madam Chair, for this hearing.
    Ms. Norton. Thank you, Mrs. Capito.
    Mr. Arcuri, do you have an opening statement?
    Mr. Arcuri. No ma'am.
    Ms. Norton. We are going to go to our first witness, and we 
are pleased to welcome Congressman Lipinski, especially pleased 
since he earlier came forward with a bill which we have already 
incorporated in the pending bill from this Committee on energy.
    I am pleased to welcome you here and hear your testimony, 
Mr. Lipinski.

 TESTIMONY OF THE HONORABLE DAN LIPINSKI, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Lipinski. Thank you, Madam Chairwoman, and thank you 
for letting the light in.
    I said earlier when we had a hearing, and you had mentioned 
about how we have these curtains blocking all the light, that 
it took me a while before I even knew that there were windows 
behind these curtains in a lot of these Committee rooms. Thank 
you for doing that.
    Chairwoman Norton, Mrs. Capito, Mr. Arcuri, today, 
Americans are rightly concerned about the impact of foreign 
energy dependence on our national security and the effects of 
global climate change on the planet. I applaud Chairwoman 
Norton for holding this hearing because I firmly believe that 
the Government must lead by example, but when it comes to 
energy conservation, the Federal Government because of its size 
also has a significant direct impact on energy usage and the 
environment.
    That is why earlier this year, my colleague, Bob Inglis and 
I introduced the Bulb Replacement in Government with High 
Efficiency Technology Energy Savings Act known as the BRIGHT 
Energy Savings Act. This bill will help us to address both 
environmental and energy issues by cutting down significantly 
on energy usage and emissions of global warming gases by the 
Federal Government while at the same time saving millions of 
taxpayer dollars. It is a win for the environment, a win for 
national security and a win for American taxpayers.
    Our legislation directs the General Services Administration 
to replace currently used low efficiency light bulbs with high 
efficiency bulbs whenever a bulb is replaced or installed in a 
Federal GSA building.
    The impact of the BRIGHT Energy Savings Act could be 
significant. The Chairwoman discussed the number and size of 
buildings that GSA owns and also manages. Our figures show at 
least three million lights throughout the Federal Government 
could be upgraded to high efficiency bulbs under our 
legislation.
    The type of high efficiency bulb that will mostly likely be 
used today is the ENERGY STAR certificated compact fluorescent 
light bulb known as a CFL. CFLs use approximately 75 percent 
less energy than incandescent bulbs, provide the same amount of 
light, and they last approximately 8 to 10 times longer. 
Replacing an ordinary bulb with a comparable CFL saves up to 
$74 in energy costs over the bulb's lifetime.
    It is easy to see that hundreds of millions of taxpayer 
dollars can be saved, implementing this bill. By converting 
just one conventional 60 watt incandescent bulb to a 13 watt 
CFL of the same brightness, we can prevent the burning of 110 
pounds of coal and the release of 450 pounds of climate 
changing greenhouse gases into the atmosphere.
    If the Federal Government makes this action and it leads 
every American household to just swap one bulb for a CFL, the 
Country would save $8 billion in energy costs, prevent the 
burning of 30 billion pounds of coal and keep 2 million cars 
worth of greenhouse gas emissions from entering the atmosphere. 
That is just one bulb in every home, and every home has about 
30 light bulbs. The possibilities are great.
    Ms. Norton. Speak more closely into your microphone like I 
am.
    Mr. Lipinski. All right.
    Ms. Norton. This room is so cavernous that it is easy for 
your voice to get lost.
    Mr. Lipinski. As an engineer by training, I am fascinated 
by the promise of new and emerging technologies and what they 
mean for our future. In addition to CFLs, new halogen 
technologies are expected to become commercially available 
later this year. Further down the road, LEDs, light-emitting 
diodes, will revolutionize the lighting industry leading to 
vastly more efficient lighting and the prospects of bulbs that 
do not burn out.
    Much of this technology represents American ingenuity and 
innovation. It provides hope for a brighter future. With the 
Federal Government purchasing large quantities of these high 
efficiency bulbs, this next generation of technology will be 
less costly to put into American homes.
    I am pleased that a bipartisan group of more than 80 
Members have joined us on the BRIGHT Energy Savings Act. Just 
last month, the language of this bill was adopted into the 
Committee's Transportation Energy Security and Climate Change 
Mitigation Act. Now we need to move this important legislation 
from this Committee forward.
    In addition, Representative Bob Inglis, Ed Markey, and Mark 
Kirk join me in amending the fiscal year 2008 Defense 
Authorization Bill with similar language requiring the DOD to 
use energy efficient lighting to the fullest extent deemed 
feasible.
    Finally, Representative Inglis and I have worked with 
Representative Jane Harman and Fred Upton to amend every House 
appropriations bill that comes to the floor this year with 
similar language requiring the use of high efficiency bulbs. 
Combined, all these efforts will apply a high efficiency 
lighting requirement on virtually every Federal agency and 
facility. This is a practical, common sense approach that is 
simply the right thing to do.
    I applaud Speaker Pelosi and Chairman Oberstar for their 
efforts to make Congress a model for the Country and for the 
world.
    I would also like to thank Chairwoman Norton for working 
with me on this important issue and allowing me to testify 
today.
    It is rare when we are talking about saving energy, 
becoming more energy independent, cutting down on global 
warming gases. It is rare when we can do these things and at 
the same time save money. It is just common sense that the 
Federal Government lead in replacing our low efficiency 
incandescent bulbs with high efficiency bulbs. We can do much 
in saving energy, helping the environment and also saving 
taxpayer dollars.
    Thank you.
    Ms. Norton. Well, thank you, Mr. Lipinski, and especially 
thank you for your leadership.
    It should be said that some of what needs to be done with 
respect to fluorescent lighting we see all around us, and much 
of that is being done by GSA in buildings, perhaps not in 
lamps. But in that regard, we hear complaints that incandescent 
lamps or incandescent bulbs are less expensive than fluorescent 
bulbs, and we live in a short term first Country.
    Why is that, number one and, two, are the prices coming 
down for the bulbs as far as you know?
    Mr. Lipinski. Well, the incandescent bulbs are based on 
technology that was more than a hundred years ago created. We 
are still putting electricity through a filament to create that 
light but more than anything, create heat more than light.
    Those are very cheap to produce, and that is very true. You 
walk in the store. Sometimes you can find four of those bulbs 
for a dollar. But in the long run, yes, right now the CFLs last 
8 to 10 times longer and the energy savings, 75 percent less 
energy.
    Ms. Norton. What is the short term?
    This energy savings point has got to get across. You can 
tell people that something will save you money. If you tell 
them it will save you money over the next year, you might get 
them, or if you tell them it will save you money in two years. 
But unless you speak time frames, I think the short term fix in 
the American brain may not catch even though I believe it is 
catching on in the Federal sector.
    Mr. Lipinski. Well, I think it is hard to say. It depends 
on how much you are using your light bulbs because the 
estimates are that up to $74 over the lifetime of a bulb will 
be saved by using a CFL rather than an incandescent. So it all 
depends on how long your light bulbs are lasting right now, how 
much you are using them, how much that you could save in one 
year.
    Ms. Norton. I can see the difficulty.
    Mr. Lipinski. It is really difficult to say, but most 
estimates are that within a year you will come out ahead from 
the energy savings for using a CFL rather than an incandescent 
bulb.
    Ms. Norton. I think the Federal Government does understand 
it to the extent that bulbs are used as opposed to fluorescent 
lights. This needs to be mandatory. It is not mandatory now. It 
will be when the provision in your bill is added to our energy 
bill.
    I would like to ask Mrs. Capito if she has any questions 
for Mr. Lipinski.
    Mrs. Capito. No, I have no question. Thank you for your 
efforts. I look forward to working together to find some 
solutions, and I am interested in your talking about using the 
different bulbs.
    I just have one question. Is the bulb that you are talking 
about the spiral?
    Mr. Lipinski. Yes. Actually, I should have brought an 
example. It is the spiral bulb. These are fluorescent lights, 
but they are in the tubes, but there are also the ones that are 
spiral and screw into a regular light socket.
    They also have ones that now actually look more. They put 
something around that spiral so it looks like a regular 
incandescent bulb.
    The other thing is that some people say they don't like the 
bulbs because of the type of light that they give off. There 
have been great advances made in CFLs in terms of producing 
light that is very much like an incandescent bulb that we are 
used to.
    In addition to that, these halogen bulbs, these new halogen 
bulbs, they are a little different than the ones that we use in 
some appliances now. There will be screw-in halogen bulbs 
coming out later this year. Virtually, you cannot tell the 
difference between that and an incandescent bulb, and they are 
still more efficient than incandescent bulbs.
    Ms. Norton. Most of the bulbs you are talking about are 
screw-in bulbs and you can put them in a lamp?
    Mr. Lipinski. Yes.
    Ms. Norton. In any lamp in your house or any lamp here in 
the Congress.
    Mr. Arcuri.
    Mr. Arcuri. Thank you, Madam Chair.
    I would just like to thank the gentleman for his hard work 
in this area and his leadership. Thank you very much. Keep it 
up. This is what we need to be talking about. This is the 
direction that we need to continue to move in, and I appreciate 
your efforts.
    Thank you.
    Mr. Lipinski. Thank you.
    Ms. Norton. If there are no other questions, we thank you 
for coming, Mr. Lipinski.
    If I may say so, the interesting thing is we began with Mr. 
Lipinski and Mr. Lipinski's idea which is already part of our 
statute, but what we are today about are things that don't even 
cost that much, don't even cost as much as the added cost of 
the fluorescent light bulbs.
    I very much appreciate your coming. I appreciate your 
initiative.
    I want to ask the next panel to step forward. We are going 
to hear next from Commissioner David Winstead of the Public 
Building Service at GSA, from Phil Grone, the Deputy 
Undersecretary of Defense for Installations and Environment, 
from Brenna Walraven who is Chairman-Elect of the Building 
Owners and Managers Association International and Neil Stanley 
who is Chief of Staff/Associate Director of Energy Conservation 
in the District of Columbia which has taken some important 
path-breaking steps at the local level.
    Let us begin with Mr. Winstead.

TESTIMONY OF DAVID L. WINSTEAD, COMMISSIONER, PUBLIC BUILDINGS 
  SERVICE, U.S. GENERAL SERVICES ADMINISTRATION; PHIL GRONE, 
      DEPUTY UNDERSECRETARY OF DEFENSE, INSTALLATIONS AND 
 ENVIRONMENT, DEPARTMENT OF DEFENSE; BRENNA S. WALRAVEN, RPA, 
 CPM, CHAIRMAN-ELECT, BUILDING OWNERS AND MANAGERS ASSOCIATION 
 INTERNATIONAL; NEIL STANLEY, CHIEF OF STAFF/ACTING ASSOCIATE 
  DIRECTOR OF ENERGY, DISTRICT OF COLUMBIA DEPARTMENT OF THE 
                          ENVIRONMENT

    Mr. Winstead. Chairwoman Norton, Congressman Arcuri and 
Congresswoman Capito, it is very nice to be here. I am very 
pleased as Commissioner of the Public Buildings Service to join 
this hearing and your commitment to energy conservation in the 
built environment.
    I would like to ask that my formal statement be submitted 
for the record as well as some handouts and charts that I have 
for the Committee's attention.
    Today, I would like to focus on four general areas, 
responding to some of the questions that we have had for 
Congressman Lipinski. I wanted to stress GSA's recent history 
in terms of energy savings in our 1,500 Federal buildings and 
our leased inventory; number two, our building operations and 
customer outreach efforts to our tenants for energy 
conservation actions; three, efficient building systems and 
renovation, new construction. As you know, we have a very large 
construction and renovation program through the Chief 
Architect's Office at GSA as well; and, fourth, utility 
procurement actions.
    I would like to also offer a few ideas that might assist 
the Subcommittee in further promoting cost-effective energy 
strategies in Federal facilities.
    Here today, I have Pat Fee who is Director of Energy of 
Building Operation and Maintenance, also Kevin Kampschroer who 
is Director of Research and Expert Services that really is our 
in-house expert on energy and sustainability issues.
    As the Chairwoman mentioned, Federal buildings account for 
30 percent of Government energy use. As much as 70 percent of 
that cost is electricity. Leading by example and demonstrating 
how we can reduce energy consumption through operation, 
customer outreach and effective buildings and cost-effective 
utility procurement is an extremely important and very well 
staffed out program at GSA at this point.
    We feel we have a very strong record of energy 
conservation. This goes back to 1985 even and 2005. We have 
achieved about a 30 percent reduction in energy which we 
targeted by the Energy Policy Act.
    We have made great strides in implementing the President's 
executive order which requires a 30 percent reduction from 2003 
through 2015. In fact, in 2006, fiscal year 2006, we reduced 
our overall energy consumption in our owned inventory by about 
4.7 percent compared to 3 years before.
    We currently operate our buildings at 9 percent below the 
private sector. BOMA, you will hear testify. We use the BOMA 
benchmarks as well as other performance standards in the 
marketplace to govern our actions and savings compared to other 
private sector buildings. We also are paying on the average 4.2 
percent less in terms of utility.
    During the 1990s, Congressman Lipinski is certainly pushing 
this forward with this bill, but we had retrofitted existing 
buildings with increasingly efficient lighting systems. Our 
early goal was to reach about 20 percent energy reduction 
between 1985 and 2000. We are moving towards a new generation 
of integrated lighting products including building-wide design 
systems, task lighting in terms of ambient as well as desktop 
lighting, and lighting controls and new glazing materials.
    We are also increasingly managing the energy consumption in 
our buildings more effectively, and the NCR is a great example 
of this, and I will mention an action taken just two weeks ago 
that illustrates that.
    We have energy management practices, both energy tracking 
where we track energy consumption monthly at all GSA 
facilities. Our systems provide a status of energy trends as 
relate to past and future activity, and we also target 
opportunities for operating improvements in energy retrofits.
    We also conduct energy audits continually on our building, 
identifying both energy savings and life cycle, effective 
energy conservation and on an annual basis, we tackle about 10 
percent of our inventory with those audits.
    Also, over the past 3 years, 33 of our buildings reduced 
their energy consumption by more than 20 percent. We review 
with our property managers at these locations their actions in 
terms of energy reduction.
    We use the ESPC which is Energy Saving Performance 
Contracts. We are essentially a private business investing in 
energy retrofitted buildings and from the savings of that 
energy, we essentially can finance the improvements that are 
being included in those energy retrofits. But some of these 
have included turning off perimeter lighting, obviously office 
equipment, also reducing the use of space heaters, eliminating 
some non-essential 24 hour equipment operation and obviously 
lighting retrofits.
    In addition, we are increasingly adjusting lighting control 
systems to match tenant needs and replacing interior and 
exterior lights with the LEDs, as Congressman Lipinski 
mentioned, the light-emitting diodes, and replacing gas engines 
with electric motors.
    Also tenant outreach is a large part of this, ensuring that 
we can incentivize our Government employees to embark on a 
number and we have done that in a number of ways. Our property 
managers are essentially working through GSA energy 
coordinators to implement aggressive energy actions for both 
our buildings and our tenants. There are illustrations of this.
    We do have one chart, I think, that illustrates that the 
best, and that was that just two weeks ago we had 90 degree 
days in Washington, and I think this will illustrate what, by 
energy control systems in our buildings in NCR, we actually 
were able to reduce. Even though the heat went up to 98 degrees 
two weeks ago Tuesday, we were able to predict that and adjust 
and dictate to the property managers within our NCR buildings 
to reduce the energy levels to adjust for savings during times 
that previously you may have had blackouts. So this is an 
example just within the last two weeks of using those 
monitoring systems.
    I know that my time is almost up here, Madam Chair, but you 
are well of our efforts with our owned inventory and the new 
buildings in terms of the Bennett Building in Jacksonville, we 
are saving about a 60 percent reduction as a result of 
integrating energy efficient design; the Duncan Building in 
Knoxville, Tennessee.
    Also I think most notorious is last Monday, we dedicated 
the new San Francisco Federal Building in San Francisco. From 
the 5th to 18th floor, essentially, it is taking advantage of 
the low humidity and the moderate temperatures in San 
Francisco. It does not have heating or air conditioning 
systems, and we hope to get about 50 percent reduction in that 
portion of the building.
    There are some secured sections of the building that have 
regular HVAC systems, but we are essentially taking the wind 
flows and the design of the building to maximize returns as a 
result of the siting of that building.
    Madam Chair, I know I am up here, but I think I covered 
other examples of what we are doing, and I would be happy to 
take any questions at the end of the panel.
    Ms. Norton. Thank you, Mr. Winstead.
    Mr. Grone.
    Mr. Grone. Thank you, Madam Chair, and distinguished 
Members of the Subcommittee. I appreciate this opportunity to 
appear before you this morning to discuss the energy efficiency 
and conservation programs of the Department of Defense.
    Consistent with the Energy Policy Act of 2005, Executive 
Order 13423, DOD strategy is a comprehensive approach to reduce 
energy consumption, increase facility energy efficiency and 
develop renewable energy resources.
    In furtherance of that strategy in my role as the Deputy 
Undersecretary of Defense for Installations and Environment, I 
issued a memorandum on installation energy policy goals on 
November 18th, 2005. Along with emphasizing the requirements of 
current law and the goals of the executive order, the 
memorandum established a goal for the Department to procure and 
produce renewable energy equivalent to 25 percent of total 
electricity demand by 2025 where life cycle cost effective.
    The Department's program to this date is demonstrating 
results. In fiscal year 2006, the Department reduced energy 
consumption as measured in British thermal units per gross 
square foot by 5.5 percent in buildings from the fiscal year 
2003 baseline established by Congress.
    DOD exceeded the fiscal year 2006 renewable energy goal of 
2.5 percent. The Department's renewable purchases and 
generation accounted for 9.5 percent of all electricity usage 
in that year. The national average is approximately 6 percent.
    DOD has achieved a 30 percent improvement in energy use 
since 1985 when measured in terms of energy use per square foot 
of building space. Over those 30 years, as I indicated, we have 
reduced our energy use from 138 billion British thermal units 
to 98 billion British thermal units per square foot today.
    Our tools are critically important in this regard. We have 
achieved significant savings using the Energy Conservation 
Investment Program. That program, a line item that is contained 
in the military construction appropriations request, is a 
competitively bid that invests in energy efficient upgrades for 
existing facilities.
    In fiscal year 2007, that was a $55 million program which 
included $19.6 million for renewable projects and just over $3 
million in hydrogen fuel cell projects. In the President's 
budget request for the coming fiscal year, we will increase the 
amount for that program to 70 million.
    The Department also makes use, as do our colleagues in GSA, 
of Energy Savings Performance Contracts which allows us to use 
industry funding to pay for equipment to reduce life cycle 
costs of facilities and pay those investments back from the 
accrued savings. Private sector financing through the ESPC 
mechanism increased from 2005 by 316 percent to our present 
position to more than $586 million of award value just in 
fiscal year 2006.
    We want to build on this progress by increasing the use of 
ESPCs enabling DOD to have more effective, more cost-effective 
long term facilities operation and maintenance, certainly at a 
reduced up-front cost.
    Installations and facilities are in the energy security 
business for the long haul at defense installations, and we are 
exploring additional enhanced use leasing opportunities and 
public-private ventures to develop cost-effective renewable 
resources.
    But, certainly, we understand that the tools alone are not 
enough and that the culture change which the Chair has 
indicated that is necessary, the daily management by 
individuals is critically important, and I want to highlight 
three aspects of the training and emphasis that we have placed 
upon that.
    The Army has made energy stewardship a critical effort as 
part of their broader Army Energy and Water Campaign Plan for 
installations, and they have included energy and water 
conservation responsibilities in the position descriptions and 
performance plans of its commanders and civilian supervisors.
    The Navy, realizing that creating this culture change is 
vital to achieving energy efficiency, instituted a multilevel 
plan for reaching its people through enhanced training. The 
Navy's energy training program has directly facilitated the 
training of 2,500 Department of Navy personnel with over 160 
becoming certified energy managers.
    The Air Force, under Secretary Wynne's leadership, in 
establishing Air Force Smart Operations for the 21st Century, 
included improving energy efficiency as one of AFSO 21's five 
desired effects. The others being productivity, asset 
availability, agility and safety, all of which are designed to 
help guide initiatives in key areas for continuous process 
improvement. Those who have been involved in continuous process 
improvement know that it requires the direct, very direct role 
of the individual on the ground to make sure that process 
improvement occurs.
    So across the Department in ways, large and small, from 
training to major programs, we are working earnestly in this 
area to improve our energy conservation profile. We have 
appreciated the great support we have received from the 
Congress for these initiatives, and we look forward to 
continuing to work with Members to improve those programs in 
the coming months and years.
    Thank you, Madam Chair.
    Ms. Norton. Thank you, Mr. Grone.
    Ms. Walraven.
    Ms. Walraven. Good morning, Madam Chairwoman Norton and 
distinguished Members of the Subcommittee. Thank you for 
holding this important hearing and for inviting me to testify 
today.
    My name is Brenna Walraven. I am Executive Managing 
Director of National Property Management for USAA Real Estate 
Company, and I oversee property management operations for a 
national portfolio of approximately 35 million square feet. I 
also serve actually as Chairman-Elect for the Building Owners 
and Managers Association International.
    I am clearly having a technical problem.
    Ms. Norton. We would just like you to speak. You can all 
hear me. I don't know why it is.
    Ms. Walraven. Am I not loud enough so go closer?
    Ms. Norton. Yes, go closer, so we can really hear what you 
are saying.
    Ms. Walraven. Okay, I apologize.
    I am also serving as Chairman-Elect for Building Owners and 
Managers Association International, and I am testifying today 
on behalf of BOMA. BOMA represents commercial real estate 
professionals who collectively own or manage more than 9 
billion square feet of office space which represents more than 
80 percent of the prime office space in North America.
    BOMA has a long involvement in energy efficiency issues, 
and in fact last year we launched one of our most comprehensive 
educational initiatives in partnership with the EPA's ENERGY 
STAR program known as the BOMA Energy Efficiency Program or 
BEEP. The BEEP curriculum is focused on no and low cost ways to 
reduce energy consumption.
    We estimate that if only 2,000 buildings adopt BEEP's no 
and low cost practices over the next 3 years, energy 
consumption and carbon emissions will be reduced by 10 percent 
which would result in $400 million of energy savings and 6.6 
billion pounds less carbon dioxide released into the 
atmosphere. I was asked to address some of these strategies in 
my remarks today.
    First and foremost, we recommend that all real estate 
owners and operators benchmark their buildings on ENERGY STAR 
to get an energy performance rating that provides not only a 
baseline but also, more importantly, provides a more objective 
measure of energy performance because it takes into account 
weather, occupancy and other building attributes that 
dramatically affect consumption.
    Next, we recommend creating an action plan on how to 
improve the rating and thus performance by setting realistic 
and achievable performance goals, identifying areas for 
improvements and then focusing on operational strategy as well 
as low and no cost improvements.
    When setting priorities, we recommend first looking at the 
low-hanging fruit beginning with operations and management, 
then looking at occupant behavior, lighting controls and 
finally short payback building retrofit opportunities. These 
ideas are not at all complicated, and many do not require 
additional expertise of the building manager or operators.
    By low-hanging fruit, we mean start by looking at building 
operations and management and regularly inspect all equipment 
and controls to ensure they are operating as designed. For 
example, calibrate thermostats and ensure thermostat settings 
actually equal the space temperature. Make sure the system 
isn't heating and cooling at the same time which can easily 
happen.
    Make sure systems that are supposed to be off at night 
actually are off which can easily be verified by a once a month 
evening inspection of the property because a simple $100 faulty 
relay can cause a building to run 24 hours, 365 days without 
anybody realizing it is happening.
    Finally, implement janitorial best practices such as team 
cleaning and day cleaning which can shorten the amount of time 
space needs to be lit or air conditioned.
    In terms of occupant behavior, it plays a critical role in 
how facilities use energy. We recommend working with tenants to 
educate them on ways that they can help to reduce energy by 
simply turning off lights and unneeded equipment, switching to 
ENERGY STAR office equipment and appliances, using task 
lighting to reduce the need for unnecessary overhead lighting 
and locating work stations as close to natural daylight as 
possible to cut down on overall lighting needs.
    Lighting specifically is another area where building 
operators can achieve dramatic financial returns with low 
capital investment and use off the shelf proven technologies. 
Lighting actually accounts for approximately 29 percent of the 
energy used in offices.
    The latest technology often has a less than one year simple 
payback. Change incandescent bulbs to compact fluorescents and 
convert 40 watt T-12 fluorescent lamps to 32 watt and even 
today 25 watt T-5 lamps. Install electronic ballasts in place 
of magnetic ballasts and replace inefficient exit signs with 
LED exit signs.
    Many parts of the building are often over-lit. In these 
spaces reduce lighting levels, like we did here today, de-lamp 
and disconnect unused ballasts. Timers and occupancy sensors 
are also good ways to ensure that lights are only on when they 
are actually needed. Many building managers find that they are 
wasting energy.
    In conclusion, there are many no and low cost energy 
reduction measures that operators of public and private sector 
buildings can take that improve the performance of the 
building, improve energy efficiency and save money without at 
all sacrificing comfort.
    BOMA believes that the Building Owners and Managers 
Association should continuously assess their energy usage using 
the ENERGY STAR tools, strive to be responsible environmental 
stewards as systems, technology and operating best practices 
are continually improving.
    We thank the Subcommittee for holding this important 
hearing and look forward to working with Congress, the General 
Services Administration, Department of Defense and other public 
and private sector partners to achieve our mutual goal of 
improving energy efficiency in the built environment.
    Ms. Norton. Thank you for that testimony.
    Mr. Stanley, I want to indicate how much I appreciate your 
being here because you are here on shorter notice than the 
others. We wanted to make sure that the local government or 
State Government sector was represented here because we are 
impressed that some of the more progressive actions are coming 
from local and State governments.
    Mr. Stanley, we welcome you and than you for coming.
    Mr. Stanley. Thank you very much, Madam Chair. Good morning 
to you and Members of the Subcommittee on Economic Development, 
Public Buildings and Emergency Management.
    Again, my name is Neil Stanley, and I work as the Chief of 
Staff for the District Department of the Environment. My 
responsibilities at DDOE include managing all the District 
Government energy efficiency and conservation programs. I 
appreciate the opportunity to testify on implementing low to no 
cost quick and easy energy efficiency measures.
    I would like to take this opportunity to briefly describe a 
number of key current and also prospective initiatives that the 
District Government has designed to reduce energy consumption 
in our facilities.
    The first initiative is known as the D.C. Municipal 
Aggregation Program or DCMAP. DCMAP is essentially a program in 
which we conduct an online reverse auction for procuring 
electricity.
    Through this initiative, the D.C. Government is projected 
to save over $30 million over the next 3 years while doubling 
its environmental commitment by utilizing 10 percent of 
renewable energy sources. These savings cover the District 
Government buildings, our schools, the University of the 
District of Columbia, the Washington Convention Center, The 
D.C. Sports and Entertainment Commission as well as our streets 
and lights and traffic signals programs. Through aggregate 
purchasing power, the District of Columbia is able to save and 
reduce energy costs while promoting renewable strategies.
    The second initiative that I think is very important for 
energy conservation in the District of Columbia is the 2005 
District of Columbia Green Building Act. The specific purpose 
of this legislation was designed to create a task force of 
green building experts, environmental advocates, government 
representatives and industry experts to develop sustainable air 
quality and stormwater management strategies to ensure the 
District of Columbia is greening its buildings.
    The legislation applies to new construction or substantial 
improvement of District of Columbia buildings in the coming 
fiscal year and includes the following requirements. The first 
is that all non-residential buildings must fulfill or exceed 
Leadership in Energy and Environmental Design standards at the 
silver level, that our public schools must also fulfill or 
exceed the LEEDs for school standards and that priority 
consideration will be given to District Government-owned spaces 
with requirements meeting or exceeding the LEED silver 
standard.
    The District of Columbia will also be providing incentives 
and grants to help defray the costs that will promote early 
adoption of green building practices by applicants for building 
construction permits for both residential as well as non-
residential buildings.
    In addition to the Green Building Act, the District of 
Columbia has become committed to developing high performance 
buildings both in the government and commercial sectors. We are 
doing that by adopting energy management strategies that 
measure and improve energy performance through ENERGY STAR 
benchmarking, reporting, training of building managers and 
reducing consumption in all District Government facilities.
    We are excited about this new opportunity, and we are also 
excited about the opportunities that we have by serving on the 
Building Code Advisory Council Energy Committee. Through our 
service on this Committee, the District of Columbia is 
promoting stronger energy standards in our building codes so 
that new buildings coming online will be much more energy 
efficient.
    The District of Columbia is also working very diligently to 
track and audit all of our government buildings and schools to 
make sure that we are actively reducing the amount of energy 
that we consume. Based on audit results, energy conservation 
managers are being installed and building managers will be 
trained so that they can help to maintain these buildings at a 
lower consumption level.
    Finally, the District of Columbia is also investigating the 
feasibility of demands response options for District-owned 
buildings. These programs will help to remove the District of 
Columbia from the electricity grid and free up much needed 
electricity during times of heavy electrical demand, thereby 
preventing possible blackouts.
    Madam Chair, we believe that the District of Columbia 
Government can lead by example by decreasing energy 
consumption, increasing our commitment to renewable strategies 
and building or retrofitting buildings that meet LEED 
standards. Although we have got a lot more work to do in 
meeting this goal, we believe that our recent steps that we 
have demonstrated show that the Nation's Capital is raising the 
bar towards energy consumption standards.
    This concludes my prepared remarks, and I am happy to 
answer any questions that you may have.
    Ms. Norton. I want to thank all four of you for testimony 
that is not only enlightening but testimony that helps us to 
understand how to get to the point where this is a matter of 
requirement and where it is done more automatically as a matter 
of habit. Some of your testimony has spoken to larger savings 
and some of it to culture savings.
    Let me begin first by noting that we have been joined by 
the ultimate environmentalist on our Committee, the Chairman. I 
ask Chairman Oberstar if he has a few remarks to make before we 
proceed with questions.
    Mr. Oberstar. Thank you, Madam Chair. Thank you for calling 
the hearing and for your persistent work on this issue.
    I thank the gentlewoman from West Virginia, Mrs. Capito. I 
always think of Moore Capito. I knew your father. I am happy to 
say and sorry to say I have been around long enough to have 
known the whole family.
    [Laughter.]
    Mr. Oberstar. Thank you for your participation and 
steadfast participation in the Committee work.
    The subject of this hearing is critical. We are going to 
pursue a vigorous course of action on all public buildings 
prospectuses from GSA, on life cycle costing, on energy 
conservation practices.
    We are going to require, as we have done in the six 
building prospectuses reported this year, require a life cycle 
cost analysis by GSA, a report on the benefit-cost analysis of 
solar conservation whether it is photovoltaics or other solar 
applications. We are going to do our part in energy 
conservation.
    The Committee on Transportation and Infrastructure has 
jurisdiction over 367 million square feet of Federal civilian 
office space. The annual electricity bill--it appalls people 
when I tell them this--is $5,800,000,000. We can cut that 85 to 
90 percent with solar applications, and we are going to do 
that.
    We are going to make sure that GSA does its part and save 
the public money, stimulate the solar energy industry that has 
on its own, without the Government has vigorous a partner as it 
should have been over the last 30 years, has driven the cost of 
photovoltaics down from $1.75 a kilowatt hour in 1977 to 25 
cents a kilowatt hour today. We can drive that down further, 
and we would have been farther along this path if the Congress 
had persisted in overcoming President Reagan's abolishing of 
the alternative energy program in 1981.
    But we are where we are, and we are determined to do our 
part in the greening of the Capital, in the greening of the 
Nation. This does not require an Apollo project, I would say to 
my colleagues. We don't need to have a crash program to invent 
something new.
    The whole space program runs on photovoltaics. The Forest 
Service, the Park Service. NOAA has weather buoys that operate 
on photovoltaic cells.
    The U.S. Forest Service has monitoring stations in the 
wilderness areas and in the national forests, reporting on 
everything from precipitation to air temperature and moisture 
content in anticipation and prevention of forest fires. The 
Park Services has similar monitoring, all run by photovoltaics.
    We can run these buildings by photovoltaics. We are going 
to do it.
    I will cease for the moment.
    Ms. Norton. I don't know how the Chairman manages to know 
so much about so many subjects. All you have to do is sit in 
multiple Subcommittee hearings, and I just said to staff, I 
think he must not read novels.
    [Laughter.]
    Ms. Norton. He spends his time knowing everything there is 
about the subjects under our Committee.
    We are mostly dealing with basics here. You have heard the 
Chairman speak about where we could be with truly forward-
looking technology, and you heard him say we are where we are. 
So let us begin with the basics.
    What buildings have done, what the Defense Department has 
done, what the District has done and what GSA has done is 
impressive because we didn't know about it, because I think 
most of the world thinks nothing is being done. I think we 
would all agree that the time has probably come to quicken the 
pace.
    Let me ask you a basic question. Do you know what the 
temperature is in the buildings under your jurisdiction as I 
speak? Is there any mandate to what the temperature should be 
in the buildings that you have any jurisdiction over?
    Mr. Winstead. Madam Chair, we have in our P100 for our new 
buildings, the systems that we put in actually do dictate 
performance standards in terms of range of energy or rather 
energy temperature.
    In our current existing buildings in the NCR, we generally 
leave it at about 70. It is 68 to 72 is the range that we 
maintain most of the systems in NCR, most of our major Federal 
buildings. So that is essentially the monitor. When we were 
monitoring this building in the heat situations of two weeks 
ago, we were still trying to keep it at the 72 level.
    So that is essentially the benchmark that we have, and that 
is reflected both in the building operation direction for our 
property managers as well as with the design of new buildings 
in the systems to try to keep it at the 68 to 72 range.
    Ms. Norton. Mr. Grone?
    Mr. Grone. Madam Chair, for the Department of Defense, we 
have a similar range built into the operating procedures for 
the 370,000 buildings that are in the DOD inventory. The 
services implement that through their installation management 
profiles.
    We are in a similar position to GSA. We have established 
corporate policy, department-wide policy in terms of guidance, 
and then the components will implement that and execute that at 
the base level, but it is a similar as Mr. Winstead described.
    Ms. Norton. Did either of you? I know the buildings are not 
under your specific control, Ms. Walraven.
    Ms. Walraven. I would just add that as an industry standard 
for commercial buildings, a range of 68 to 72 percent plus or 
minus 2 percent, 2 degrees, is an industry standard, and most 
leases dictate that range.
    Mr. Stanley. The District of Columbia does not currently 
have a mandate in place. However, we are convening an 
interagency task force within the government to look at this 
precise issue and using the leadership of both private industry 
and the Federal Government as guidance for what the applicable 
standards could be within the government.
    Ms. Norton. I ask that question because what I think, well, 
let me go to the next question.
    It is pretty clear except for Mr. Grone's testimony, where 
in a real sense you see the difference between how the military 
sector and how the civilian usually operate. When the military 
sector says you are supposed to do something, usually they say 
and this is who is supposed to see that it gets done. You know 
you are in the Army now or even in the military now.
    I noted in your testimony. I think yours was the only 
testimony where we heard specifics about who was delegated to 
do something. I think we looked in your testimony and some of 
what you said about the Army in particular, I remember. I don't 
believe it was in your written testimony, but it seemed to be a 
paradigm for how to make sure that a policy is more than a 
policy.
    Would you elaborate on how you carry out the policy or at 
least how the Army has carried out the policy? Describe the 
policy you spoke of because we really want to focus not nearly 
so much on policy today--everybody knows what should be done--
but on how it should be carried out.
    Mr. Grone. Well, Madam Chair, it is a very important 
question because it gets to the heart of the matter about 
performance measures and performance standards.
    Ms. Norton. A little closer into the microphone.
    Mr. Grone. It gets to the heart of the question about 
performance measures and performance standards. We are not at 
the department-wide level establishing policy as we have 
previously, but the components as the Army has done and the 
other components as well are building.
    Ms. Norton. You went out and you used to do it department-
wide. Why did you go to Army, Navy, et cetera?
    Mr. Grone. I am sorry?
    Ms. Norton. You say you don't establish it department-wide 
and you used to.
    Mr. Grone. Oh, we do. We have department-wide goals that 
are established. The components'--the Army, Navy, Marine Corps, 
Air Force--defense agencies are responsible for the 
implementation and execution and the achievement of those 
goals.
    Ms. Norton. I see.
    Mr. Grone. But where the Department is evolving, as I think 
many of our colleagues in our sister Federal agencies are 
evolving, is building those performance expectations into not 
just of the management plan of the organization but building it 
into the performance standards and expectations for the command 
leadership, for the senior executives as well as the line staff 
that are implementing and carrying those out. So unifying what 
we expect of our people, building them around programs that are 
sustainable over time is critically important.
    One of the things that we do in my office is we have 
established a Defense Installations Strategic Plan. We are 
revising it for the third time since it was first established 
in 2004. It was the first occasion we had a Defense-wide 
strategic plan for the management of the Installations' 
portfolio and a key component of that plan concerns energy 
demand management, generation of new and renewable sources and 
how we cascade that again down to the level of the individual 
person on the line, out in the field, how they would carry that 
out.
    The implementing guidelines, the change management 
communication, these are all things that all of us in this 
Federal agency are beginning to adopt, frankly, as many of our 
colleagues in private industry do, linking large strategy 
significant programs down to the individual.
    Ms. Norton. The operative word for me was performance 
measures. That is to say if, in fact, in judging the 
performance of the Executive, energy conservation is included, 
you are more likely to have energy conservation achieved.
    Frankly, I wonder how the Federal Government achieved the 
savings it did. I suspect that the savings that were in my 
opening statement were not achieved by habits of workers or 
managers but by purchases, bulk purchases and the like.
    Mr. Winstead, for example, in Ms. Walraven's testimony, she 
talks about janitorial best practices, and she says that 
janitorial staff is often ignored when developing energy 
savings. She has this astounding figure that they typically 
account for 25 percent of weekly lighting use or 7 percent of 
the total building use.
    Now, one thing you could do in putting our your RPF for 
janitors would be to incorporate performance standards for 
them. Does anything like that occur in the many janitorial 
contractors that are used by the Federal Government?
    Mr. Winstead. Madam Chair, I think the comment by the 
representative of BOMA is very much on target in your concern 
in that regard. As you know we have and I mentioned in my 
testimony, we have got energy coordinators in all the 11 
regions, direct responsibility and accountability.
    Ms. Norton. I don't understand what an energy coordinator 
does or how that coordinator is incentivized or held 
accountable otherwise.
    Mr. Winstead. They are held accountable.
    Ms. Norton. How?
    Mr. Winstead. There is a quarterly performance review by 
both the ARA and the region in terms of the operating, 
basically the performance of the building with the energy 
savings targets.
    On the contract issues, there are clauses. For example, a 
lot of our NCR buildings and major buildings and regions are 
managed through a contract by NISH. I have talked to Bob 
Chamberlain. He has annual conferences for training the 
managers of the cleaning crews and maintenance crews, and we 
are focused on that. We are going to be doing more with them to 
ensure that every action is taken to obviously ensure lights 
are turned out as quickly as cleaning is done in our buildings.
    Ms. Norton. Would the RPF that you have to put out in order 
to do janitorial services, which you do all over the Country, 
is there or could there be points given for measures like 
janitorial best practices? I am looking for incentives, 
obviously.
    Mr. Winstead. Right. We do have clauses of maintenance 
contract and actually actions that are due. I will explore the 
issue of whether we could incentivize and account for savings.
    A lot of our buildings, as you well know, are multi-
tenanted. It is a little bit more difficult in terms of 
figuring out what floor is being cleaned and whether lights 
were turned out per direction through the contract to the 
operation maintenance provider, but there may be more than we 
are currently doing.
    I would be happy to get the Committee a copy of the clauses 
in that contract and what we are doing in training with NISH to 
make sure that the contractors and the employees through NISH 
are actually doing it. I would be happy to get that to you.
    Ms. Norton. In the statutory authority we are 
contemplating, we will be looking at what the Defense 
Department has done. Some of that is impressive because there 
are accountable people. We will be looking at incentives.
    We had Ms. Walraven here at the same time we had our 
government officials because the District of Columbia as well 
as Federal agencies often rent space, lease space. It does seem 
to me that there is a synergy there that is unavoidable. If you 
have a lease from the Federal Government, you have got 
something very valuable, and everybody knows it is very 
competitive.
    But I am not sure the extent to which that synergy works 
out in best practices. What we are going to require in our 
statute is best practices, and we are going to take those best 
practices essentially from the kinds of things we heard that 
the Defense Department is doing with performance measures and 
from what the private sector is doing.
    What I want to know is what kind of collaboration, given 
the fact that you lease almost as much space as you own. I am 
not sure if that is the case with the Defense Department, but I 
ask you this question and Mr. Stanley this question as well. 
Why isn't everybody in the same room, saying, hey, guess what, 
this is what we are requiring of every Federal building 
manager; therefore, this is required of you if you want this 
contract, period?
    We could change the world out there as well as the world 
that we live in.
    Mr. Winstead. Well, we do use. I mean Phil and I, in terms 
of how we exchange best practices in this regard, we are on a 
level.
    Ms. Norton. What do you do? Tell me the nature of the 
collaboration.
    Mr. Winstead. Well, we work closely together in exchanging 
best practices, and BOMA is obviously very much involved in 
this. We have training with BOMA. We look at their standards in 
terms of energy savings and operating techniques.
    As I mentioned, in these clauses, our contract clauses, 
both have facility standards in lighting control. These are for 
the vendors that are operating the buildings. Mechanical and 
engineering operation, there are contract clauses dealing with 
that. So we do have within our contracts, requirements for our 
contractors to take these actions and to control and turn off 
lights and to save energy.
    Ms. Norton. Suppose they don't do it. Do you know whether 
they do it.
    Mr. Winstead. Yes, we do.
    Ms. Norton. I live in Washington, so I go downtown and I 
see lights on all the time. It just kills me just because I 
wonder. Like I said, I hope those people are working late, but 
then I have my doubts.
    I am not criticizing what you are doing. I am suggesting 
that nothing happens automatically. As the Ranking Member said, 
some of us were brought up so that you were supposed to turn 
the light out when you leave the room, and it is still a habit 
that you turn it out.
    But that is not the case, I think, for the average 
American, and if it is not the case for the average American 
unless somebody is held responsible, we do not believe it will 
happen.
    My guess is that much of the savings, admirable savings 
that have occurred have not occurred because of delegated 
responsibility to make something happen but because of top 
management's ways of buying energy and of bringing pressure at 
that level on energy costs as opposed to bringing pressure also 
at the level.
    Now I could be wrong, but I haven't heard much about how 
somebody is responsible, how somebody gets a bonus, how 
somebody gets his performance rating affected except somewhat 
from, of course, from the Department depending on which part of 
the military we are talking about. So what we are looking for 
is ideas rather than criticism.
    I am going to go to Mrs. Capito and come back again after 
she does some of her questions.
    Mrs. Capito. Thank you, Madam Chair.
    I have a question. I know that all the buildings that all 
four of you deal with on a daily basis, a lot of them are very 
old and poorly insulated, poorly lit maybe in some occasions, 
maybe even poorly wired because of the age, using older 
technologies or just the fact they are just plain worn out. 
That has got to present really difficult challenges in terms of 
energy conservation.
    Mr. Winstead mentioned a new building. I believe you said 
it was a new building that was being built in San Francisco. 
That is a new construction, correct, and that holds such 
promise, I think, for energy conservation. We know so much more 
now about the technologies of conserving and balancing need 
with down times and up times.
    What kind of solutions have you worked on in terms of 
meeting the challenges of older construction, older buildings 
that you might be able to share not only with us but with 
others in the group?
    Mr. Winstead. Sure. Congresswoman Capito, as you mentioned, 
a large part of our inventory is older buildings even though a 
lot of the new courthouses, some 22 courthouses have been since 
1995 basically.
    A large part of what we are doing, we are investing about 
$407 million if you look at the total renovation program from 
1990 to 2007. In five buildings that we have analyzed that were 
renovated with new systems, new efficient energy systems 
between 2000 and 2003, we have seen an average reduction of 
about 18 percent in consumption. The totals per building have 
ranged from 3 percent to about 40 percent.
    So what we have continued to do is to apply those new 
systems that are available, whether they are HVAC systems or 
new lighting systems we talked about earlier, into those 
structures to get better performance out of them. A large part 
in our three budget line items is obviously direct 
appropriation for retrofit, but the R and A, renovation and 
alteration, and the minor R and A projects that we have in 
renovation is where a lot of that investment is occurring 
through those line item programs.
    What we have seen in our buildings, for example, in 
Waltham, Massachusetts, where we have a storage facility for 
NARA and their record-keeping is we have actually put a new 
roof on the building which has a rubberized solar panel so the 
entire roof is solar. It is not just a singular series of solar 
panels. The reduction of energy, I think, from that 
installation alone is in the neighborhood of 20 percent.
    So that is the kind of actions that we are taking across as 
well as building these new courthouses and new Federal office 
buildings and the new border station, even the one we are now 
underway with. A new border station in North Dakota has taken 
advantage of the alignment of the building with sun and 
basically the configuration of the heavy winds. The back side 
of the building is beveled. Basically in the cold it will 
divert these cold winds coming through that part. So we are 
very active.
    The one thing that I would mention to this Committee is at 
a recent meeting of BOMA with the National Advisory Council 
that I was present, GSA as a participant. I think part of what 
incentivizes, and Chairman Oberstar alluded to this, what is 
incentivizing the possibilities here now is the private sector 
is finally really alive and engaged.
    If you look back at the Green Building Council which has 
biannual meetings, about four years ago, they were tracking 
about 3,000 participants. This is both public and private 
building owners and vendors of energy systems in buildings. 
Now, 13,000 people are attending.
    Obviously, the actions of the District and Montgomery 
County and Arlington and NCR demanding LEEDs buildings and 
recertification and renovation of buildings is really driving 
better technology, better costs recovery and life cycle costs 
of these facilities.
    I would mention in my testimony just to show you the 
payback period. It used to be 10 to 15 years ago, that we were 
looking at 10 or 15 years payback on new HVAC systems or 
lighting, new lighting or glazing of windows. Now we are 
looking to an average of 6 years recovery for a lot of these 
retrofitted energy systems that we are putting into buildings. 
So we are seeing our payback shorten which is incentivizing 
both our ability to renovate buildings as well as the public to 
develop new technologies.
    Mr. Grone. For the Department, certainly you hit on one of 
the key points which is the age of the inventory. When I joined 
the Department after leaving the House Armed Services Committee 
in 2001, I took a look at the state of the inventory. The 
average age of a building in the Department's inventory dated 
to the Eisenhower Administration, and the average age of a 
military family housing unit dated to the Truman 
Administration. So we certainly had exactly the issue you 
describe across the breadth of the portfolio.
    Our approach is one coming out of the Office of the 
Secretary of Defense that is very much a portfolio management 
approach. What we have tried to do, what we are doing is 
establishing broad performance expectations for the portfolio, 
building models that are benchmarked to private sector and best 
practices in the public sector that understand how we should be 
maintaining and operating our assets, how we should think about 
the recapitalization of those assets, aggressively demolishing 
assets we no longer require, looking at those older assets for 
their potential benefit as adaptive reuse.
    What we find in many cases is that a well sustained older 
facility has many of the attributes of energy conservation that 
we are actually looking for. Carefully balancing within the 
portfolio, what is the mission requirement to the asset and 
bringing those up to some sense of contemporary standards, we 
can get an enormous amount of efficiency.
    But what we have not tried to do is specifically dictate a 
military specification out of my office down to the components 
to be implemented across the nearly 400,000 built assets to say 
you can only do X with an installation.
    We have tried to be very careful about performance 
expectations, be specific with standards where they are 
benchmarked to private sector practice, and then in working 
with our private sector partners and our interagency partners 
have those aggressively implemented across the enterprise.
    Ms. Walraven. I wanted to specifically address on the 
private sector side the financial impact is a huge motivator 
and performance metric which is why our industry is keenly 
focused on the impact of energy because it can be 20 percent of 
total costs of operating a building and as much as a third of 
variable costs or those costs which you can truly control.
    In fact, I would also comment that as it relates to most 
GSA leased structures, we are limited in our ability to 
increase rent over CPI type of increases such that we have an 
incentive to manage all costs but particularly energy because 
it is such a huge component because we won't get that recovered 
from the GSA. So that is in those leased environments that you 
asked about, Madam Chair, is a way to address and make sure 
that we are getting what the Federal Government expects.
    I would also highlight that education and outreach is 
absolutely key. To your point on this old buildings versus new 
buildings, actually EIA, the Energy Information Association, 
did a study--I believe it was in 2003--that looked at the 
poorest performance buildings in the CBECS database which is 
what ENERGY STAR is based on, and they also looked at the age 
of those buildings.
    What was interesting is that age was not the strongest 
correlator for performance and, in fact, the bottom 25 percent 
performers often had state of the art equipment including 76 
percent had economizer systems, 56 percent had energy 
management systems, 45 percent had variable speed drives.
    So a big majority of these buildings had state of the art 
equipment, and the age was not the biggest determinant which 
really supported this point and which is where BOMA's energy 
efficiency program or BEEP really focused on the low and no 
cost ways to really improve performance because you can build a 
LEED-certified top of the line building, but if you don't 
operate it correctly and benchmark it on ENERGY STAR and really 
manage that performance, it is not going to perform well.
    We see in the GSA stuff that we deal with there is a 
company at USAA that it is regularly part of the performance 
that you will have an ENERGY STAR rating, that you will seek a 
label, that you will LEED certify. I can assure you we are 
living to live up to those standards.
    Mr. Stanley. The District of Columbia Government has a 
multi-prong strategy for addressing energy consumption in old 
buildings. I think the highlight of our strategy is the Green 
Buildings Act.
    While a strong focus of the Green Buildings Act is on new 
construction, there is a portion of the Green Buildings Act 
that focuses on significantly renovated public buildings. By 
that, I mean buildings that are owned and operated or receive a 
significant portion of funding from the Government of the 
District of Columbia, and so when there is an instance of 
significant renovation in a D.C. Government building, starting 
with the new fiscal year 2008, they will be required to meet 
LEED standards.
    This, I think, demonstrates strong leadership, quite 
frankly nationally. We are very proud of that. We are also 
working on making sure that there are strong incentives, not 
just for government agencies but also for the private sector as 
it relates to the Green Building Act moving forward.
    The second, I think, piece of our multi-prong strategy is 
conducting audits of all the government buildings that D.C. 
owns and operates to do a baseline assessment of where we stand 
right now with respect to energy consumption.
    I think the follow-up to that is to do some retrofitting of 
buildings that may not necessarily require a significant 
renovation but probably could stand to use some retrofitting as 
it relates to energy consumption. One of the aspects of that 
may be working with private companies to come in and do some 
retrofitting of some of the equipment and devices that exist in 
buildings to enhance our energy consumption because we believe 
that even a small investment can yield long term benefits with 
respect to existing buildings.
    Then the last piece of our multi-prong strategy is 
training, and I think you have heard of that from a number of 
my colleagues that are here on the panel as well. I think that 
we want to make sure that every single facility manager within 
the District of Columbia Government is properly trained in 
basic strategies are making their buildings much more energy 
efficient.
    Some of them are very small things such as, again, making 
sure that computers and lights are turned off. Others are 
making sure that we have high performance cooling and heating 
systems as well. The combination of those strategies, I think, 
will help significantly.
    Then I guess the final piece is also what I mentioned 
before, and that is taking a look at some demand response 
initiatives to make sure that during peak electricity demand 
time such as during the summer that existing old buildings have 
an opportunity to demonstrate reduced energy consumption as 
well.
    Mrs. Capito. I thank you all. I date back to the Eisenhower 
era. I am glad to know age is not necessarily the prohibiting 
factor to efficiency. I appreciate your insights.
    I have to leave to go to another meeting.
    I think the training aspect or the awareness aspect in this 
Country, for some reason in the seventies this was a big push, 
and I am sure a lot of you all were around. With Jimmy Carter, 
we were in gas lines. We were becoming very aware of how much 
energy we were using both as individuals and how much we were 
using in our cars and our homes.
    I remember at one point, actually when my dad was Governor 
of the State of West Virginia, he turned off the lights. 
Conservation was becoming a word that we all understood, and we 
knew how to practice it. We got so far away from that.
    I think if people realized the statistics that you have 
just brought forward to us with the practices that you have in 
place and that I am sure you are going to be increasing upon, 
how much of an impact just small and low cost and real free 
behavior modifications can make, it can really save us all in 
the long run.
    I hope that in conjunction with what you are doing--I think 
you are doing a lot of great work--that just as a basic 
citizenry, that we can, and I think we are, raise our awareness 
and make all of us aware that little things go a long way. So I 
appreciate everything.
    Sorry, Madam Chair, I have to move out for an 11:30. It is 
all your hands, very capable hands. Thanks for bringing the sun 
in.
    Ms. Norton. Thank you, Mrs. Capito.
    Just a few more questions because we are trying to cross-
fertilize here between the military, our own civilian programs 
and, of course, the private and public sectors.
    In your testimony, Mr. Grone, you spoke about and you 
indicated what is clear, that if you use energy saving 
approaches, that will be a higher cost than if you use 
conventional approaches if you are doing building. You do a lot 
of building military housing, bases. I mean you do a huge 
amount of building.
    GSA does some, does less. We are just about to pass out an 
appropriation, probably the largest in history for GSA to build 
not just one building but a whole set of buildings on the old 
St. Elizabeth's campus.
    Now to what extent is our expectation that new methods of 
construction, taking into account energy costs, to what extent 
is that a pipedream because of the way in which appropriations 
occur and the amount of money you have to build dictates 
construction?
    Are you able, in other words, to face the future as you get 
opportunities to build new buildings of various kinds?
    Mr. Winstead. Madam Chair, clearly, as I mentioned in my 
testimony, the standards that we are putting in the P100. We 
have revised the P100 standard to both comply with the EP Act 
2005 and the executive order. It basically is including 
requirements across the board that each building uses about 30 
percent less energy, and that is published in the actual 
standard so that we are actually going below the benchmarks. As 
BOMA mentioned, most of our buildings are now benchmarked to 
BOMA standards as well.
    In the new construction, with the American Society of 
Heating, Refrigeration and Air Conditioning, we are actually, 
in new materials and construction techniques and systems in 
place, getting about 30 percent less energy in those new 
buildings.
    I know that you have watched.
    Ms. Norton. You are able to take into account as you build 
the new Coast Guard headquarters, that if you do X, you will 
save the Government energy over, let us say, the next 10 years 
rather than doing Y. You are able to do that?
    Mr. Winstead. Yes, Madam Chair.
    What I think we see in this chart that is in my testimony 
about average new systems, be it materials like glazing or high 
efficiency glass or lighting, what has happened now for the 
first time is we are really seeing a matrix of return, the data 
that allow us to understand what the Government is investing in 
this. A decade ago investing in a green roof, you really 
couldn't define to the degree that we can now. There is a lot 
out there, and we are able to document returns.
    What I am very pleased about is I mentioned earlier at this 
very recent meeting through BOMA, this National Advisory 
Council. They actually are looking at financial returns. As we 
approach St. Elizabeth's and the new headquarters, we will be 
able to actually understand what the return in energy savings 
and to the taxpayer is for the new systems we put in that 
headquarters building.
    I know you are very interested. We spent a lot of public 
money over the last 15 years on the courthouses, so we did a 
little extra work. We looked. You know we have over 300 
courthouses in our inventory. Over 50 have been built under 
design excellence since 1992. We are actually seeing about 6 
percent lower consumption in these courthouses.
    Now, as you know, they are not as heavily populated. There 
is not as much going on per day as a Federal office building, a 
multi-tenanted Federal office building, and the atriums are not 
consuming as much energy as public spaces. But we looking at 
operating hours differential in the courthouses and we are 
looking at the thermostat controls in the courtrooms that are 
not being utilized in a day and turning them down. So we are 
taking action with a lot of the newer buildings that have been 
coming into our inventory.
    Ms. Norton. Mr. Grone?
    Mr. Grone. Madam Chair, the Department is in a position now 
where we talk about the age of our facilities. We are in a 
position now where we are undertaking a most significant 
recapitalization of our military infrastructure since in the 
last 50 years, taking account all of the construction 
investments that are being made through base realignment and 
closure activities, repositioning the force globally, growing 
the Army and Marine Corps, the work that is being done with our 
private sector partners in military housing privatization.
    The budget that we have sent to the Congress for 
consideration this year has roughly a $20 billion construction 
program for fiscal year 2008. As we implement that construction 
program, many of the attributes that Commissioner Winstead 
discussed in terms of how we think about those assets, how they 
ought to be designed for the future are things that we are 
layering into that massive recapitalization activity of the 
Department.
    But there is one aspect of the energy conservation question 
that we really haven't touched on which is for this Department 
a critically important aspect of it. Our friends at GSA have 
the benefit of managing largely singular assets that stand, in 
many cases, alone, largely outside a secure fence in the 
community, and they are largely responding to energy demand 
reduction goals that occur within the four walls of that 
singular asset.
    The Department, obviously in managing military 
installations, most of our assets are behind the fence in a 
secure environment with very heavy energy demand pulls.
    Ms. Norton. No, no. Let us not give you an advantage over 
Mr. Winstead. You are on your own turf, setting your own terms.
    Mr. Grone. It does with this exception. The aspect of the 
problem that we haven't talked about is what happens outside 
those four walls. We have a recapitalization plant value for 
the entire enterprise of $710 billion based on our current 
estimates. Our utility infrastructure alone is $69 billion and 
within that $69 billion.
    Ms. Norton. Do you provide your own utilities?
    Mr. Grone. No. It is the plant replacement value of the 
distribution systems on the installations. When the power comes 
in at the main point of the fence at most installations, that 
power distributes across the system. Much of that, we own 
ourselves, and that plant value is about $25 billion for 
electric power alone.
    So as we look at the challenges of energy conservation for 
this Department, it is not just what occurs inside the 
building, but it is the distribution system that brings the 
power to that building, modernized, efficient and effective.
    When we looked at that challenge several years ago, there 
was a Department of Navy sort of catch phrase that people would 
use. The problem with our systems was that they squeak, they 
leak and they are past their peak.
    They are older, antiquated and need significant 
modernization, and with that we are meeting our energy 
conservation goals, but we also need to be very mindful of the 
distribution systems and the feeder systems.
    Also, frankly, up until just recently, we did not set about 
when we built new construction. We are doing this now, but when 
we did a new construction, we did not individually meter 
buildings.
    Ms. Norton. You did not what? I am sorry.
    Mr. Grone. We did not individually meter buildings. So the 
only place we had was the initial point of entry to tell us how 
much power we were using at Fort Carson, but we had very great 
difficulty understanding that on a per asset basis. We are 
getting to that understanding now.
    Ms. Norton. You are metering then all your buildings?
    Mr. Grone. We are putting in place the process to 
individually meter our assets, individual assets.
    Ms. Norton. Mr. Winstead, are your buildings metered?
    Mr. Winstead. We do. That is a requirement. We are. In the 
older ones we are retrofitting, we are metering our buildings, 
and that is part of what I was demonstrating.
    Ms. Norton. Is that minimally necessary?
    Mr. Grone. Sorry.
    Ms. Norton. To hold anybody accountable, is that minimally 
necessary?
    Mr. Grone. Yes, yes, absolutely.
    Ms. Norton. I can understand why it didn't happen before. 
So this is being done throughout your inventory.
    Mr. Grone. Yes. Yes, but my point in raising it was to 
emphasize that while we are very focused inside the actual 
constructed asset for the Department of Defense, I don't want 
to speak for DOE but for any of us at large that manage for the 
taxpayer and the Government, large installation complexes, the 
distribution systems as important a consideration in the 
equation as what happens inside the actual built asset itself. 
It is something that we have to pay attention to and we are 
paying attention.
    Ms. Norton. Of course, that would be huge capital costs to 
go about modernizing the systems themselves.
    What was so intriguing about Ms. Walraven said is how they 
have to compete in order to lease from the Federal Government 
and have to be below a certain CPI. Therefore, in a real sense, 
they have no place else to go but energy savings and other 
savings that they can effect in order to compete to get this 
very valuable thing called a Federal lease. That is built-in. 
This is like the beauty the private sector.
    What I am looking for are incentives in the public sector. 
The public sector does not have built-in incentives. It does 
not have a bottom line. People who would turn off the lights 
and turn off their own computers won't think a thing about not 
doing it in the workplace.
    I have to say to my staff when I go into these little 
kitchens, this is a messy place. Would you keep your own 
kitchen like this? Of course not but since it is shared and 
somebody else is paying for it.
    I would like to know what, if any, incentives. I am talking 
about anything from bonuses. We heard about performance. That 
is a great incentive, of course, if it has meaning. A certain 
percentage of your performance shall be. I mean GSA knows how 
to do points when somebody wants to compete for a lease. The 
Federal Government does performance measures.
    I wonder if there is any manager who has as a part of her 
performance measures a specific amount of that performance 
measure that is energy-related, however that is defined in the 
Federal Government today. Does anybody know of anybody?
    The Army, we already learned that the military holds people 
accountable, but I would like to know about specifics. You know 
how you will be rewarded based on very specific old-fashioned 
ways of supervising people. This is a fairly new way.
    Mr. Winstead. Madam Chair, I will be happy to get you, 
because as I mentioned on the regional, our property managers 
on the regional level are, in fact, under the quarterly review, 
the biannual review and end of the year review, actually 
performance standards are operating these buildings, ensuring 
that they are communicating to the tenants for energy 
conservation action. They are accountable for that in their 
performance measure.
    I will be happy to get you a copy.
    Ms. Norton. They are accountable for what?
    Mr. Winstead. For actually implementing and tracking and 
encouraging both in terms of operating.
    Ms. Norton. You see, that is what I don't understand. Of 
course, they are.
    Mr. Winstead. Yes.
    Ms. Norton. But how is that measured? When it comes time to 
rate their performance, how is that incorporated into their own 
performance which can decide if they have a bonus, which can 
decide whether they get promoted and the like?
    Mr. Winstead. Yes, Madam Chair, it is a part of linking 
budget to performance appraisal that is in place now. Their 
actions in compliance with both the standard reflected in their 
performance plan and obviously the operating and maintenance 
standards of our buildings, they are incentivized through a 
bonus system through linking budget to performance.
    We are essentially evaluating performance of property 
managers based upon their adherence to our energy operational 
principles and obviously communication and working with tenants 
to have them mirror those actions. So we do have one in place, 
and I would be happy to share with you without a name attached 
but a traditional performance which is done ever year for every 
major property manager responsible for that.
    I will be happy to get that to the Committee, and I will 
also go back to our chief people officer and find out if there 
is more we can do in that regard, if there are more ways.
    Ms. Norton. I appreciate it.
    For example, Mr. Grone, I am just trying to make those of 
us who live in the average real world understand.
    Suppose you have a base commander. Now I know the Army 
measures these guys in very specific ways. A base commander who 
is in charge of--I don't know--let us say Bolling Air Force 
Base, is part of the way he is evaluated as a base commander 
have anything to do with energy conservation and consumption, 
any guidance?
    Mr. Grone. Yes. I would request that I get a more detailed 
answer for you for the record.
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Grone. As I indicated in my opening statement, the Army 
for installation commanders is building exactly that profile 
into their requirements. The Secretary of the Air Force has 
made energy demand management and energy issues a key component 
of the Air Force leadership requirement.
    How each of the components are building that into 
performance expectations particularly for the military staff, 
the command element, as well as for senior executives who are 
charged with implementing and achieving the goals and 
objectives, I would prefer to get that for you on a more 
detailed basis.
    Ms. Norton. I wish you would. I understand that these 
questions are very specific. The reason we are asking such 
specific questions, recognizing that you do not have all of 
this at your fingertips, is that when we codify something, we 
want to codify something from real life. Some of what you are 
saying suggests that real life exists here, and if we would 
only spread it, we could do it.
    The things that I am asking, if you could get it to us 
within 30 days, we would very much appreciate it because we are 
working on statutory guidance.
    I notice that Mr. Stanley in his testimony said something 
that was related to one of my earlier questions. He talked 
about the Green Building Act of 2005 which established 
legislation to create and here he says a task force of green 
building experts, environmental advocates, government 
representatives and industry experts.
    That is really what I was getting at when I said what kind 
of collaboration exists between the public sector and the 
private sector which has its own incentives because it has a 
bottom line. Is there any such thing as the District of 
Columbia task force?
    Let us get everybody around the table. Does any such task 
force operate on a continuing basis to advise the Federal 
sector?
    Mr. Winstead. Well, Madam Chair, there are a number.
    First of all, I think GSA is the largest member of BOMA, 
the private sector. In terms of the District, I know NCR is 
engaged regularly, not only with their actions on green 
building initiatives which is wonderful in terms of 
incentivizing the private sector, but we actually use BOMA 
training which is both public and private participants in the 
management institute at BOMA. So I know that we are doing a 
lot.
    I would also mention that on the Federal level, we have a 
lot of new.
    Ms. Norton. Are any of the Defense Department sectors 
involved in this BOMA since you have office buildings and other 
buildings as well? I know you have habitats. You have something 
very different, but you also have the same things that GSA has.
    Mr. Winstead. Right, Madam Chair. The one thing I did want 
to mention. Federal agencies now have the Federal Property 
Council. There is also a non-profit group that is out there 
that caucuses an annual lunch for both service providers and 
Federal agency and real estate directors, but under the Federal 
Property Council, we are working closely on building 
performance standard sharing.
    As you know, a lot of the action in the last five years has 
been looking at our owned inventory, the 40 year plus buildings 
that are our average age, and figuring out how we can share 
experiences not just in energy performance and building 
operations, but as you know we are excising our portfolio.
    Just as Phil mentioned, we are actually disposing. We now 
have tiered our assets and those that are under-performing for 
energy reasons, for revenue, not achieving a 6 percent return 
which is our return on investment, we are disposing of those 
now. Even though it is an old inventory on average, we are 
actually disposing of the tier three properties and getting 
more efficient buildings by doing so and then adding everything 
we have been talking about.
    But we are sharing a lot of this through the Federal 
Property Council.
    Ms. Norton. The Federal Property Council, I am aware of, 
and I think it is a very important and good thing.
    Let me reflect the bias I have in favor of the private 
sector. The private sector has incentives to get there and to 
get to places that the public sector does not.
    When I speak about Mr. Stanley's testimony, I am really 
talking about prodding for best practices in a continuing way, 
and I believe that prodding has to come from the private 
sector. I just believe the people who have to do it as a bottom 
line continually sitting with people who don't have to do it as 
a bottom line will help us all, particularly since we share 
many of these private facilities in the first place.
    I understand these large organizations. I understand they 
break down into smaller groups that are helpful. I am saying 
that the best practices in this field are changing so quickly 
that unless there is some continuous feedback from the people 
who have to both live within a bottom line and to improve, I do 
not have confidence--I who love government--that the government 
will in fact move as well or as quickly as the private sector.
    Mr. Winstead. We will try to take your charge and even be 
more engaged.
    I would just like to conclude. Maybe Phil has got some 
thoughts.
    There are three groups that I understand. There is the U.S. 
Green Building Council that I have actually been engaged. There 
is also an interagency energy management group that meets four 
times a year in an interagency sustainability working group. So 
we do have the structure.
    Ms. Norton. That is within the government.
    Mr. Winstead. Yes, but the U.S. Green Building Council.
    Ms. Norton. I applaud that. I applaud that, but you just 
heard me express greater confidence in people who have to save 
money but still have to make improvements, and that is really 
the private sector. Therefore, I would be much more interested 
in the BOMA configurations keeping the Federal Government 
informed of what it is doing in its buildings in order to meet 
the lease requirements of the Federal Government.
    I have no sense that there is anybody sitting over here who 
feels, here where we are sitting, who feels the same 
compunction to save money and to improve that somebody who has 
the bottom line does. It is just the nature of the beast. 
Therefore, I want to get in there with the beast who does have 
that to contend with and have greater cross-fertilization the 
way the District does.
    The District sits down here. Who is ahead in the District 
with the green building?
    It is the private sector. We now have private sector people 
saying my condo is a LEED condo. They tell us that, yes, there 
is a value added and there is expense added, but they also have 
found out that when people want to invest in a condo, that they 
will do so and they can be sold on that.
    I want to hear more from people who are making money on 
putting up condos where people are willing to pay more for a 
LEED condo than for one that is not. I want to hear from those 
people because I think they know more than I do sitting in the 
Federal sector where I don't have that pressure. That is why I 
am pressing for that kind of close collaboration on a 
continuing basis, not four times a week when we all meet and 
then boast about what we have all done.
    If anything, I have more faith in the Federal sector, Mr. 
Grone, because it is a command structure. When they say do 
something, it must be done as a matter of military discipline. 
Go ahead, sir.
    Mr. Grone. Madam Chair, we are all, GSA, the Department of 
Energy, we in the Department with BOMA, we all participate in 
the National Institute of Building Sciences, for example, 
looking at how to define high performance buildings.
    As I indicated earlier, we constantly strive to benchmark 
our practices for our cost and management models which 10 years 
ago did not exist. We have come an enormous way in the last 10 
years in the Department of Defense in understanding what it 
means to sustain and recapitalize our asset base, and we do not 
do that simply by looking at what did it cost us last year to 
run the enterprise. We constantly go out and check against the 
best costing and management practices to build those into our 
budget and programming process to try to understand what does 
it take.
    Now we don't, in a risk-based judgment, always fulfill that 
obligation to 100 percent, but we understand where we are 
taking risk. That is part of the process that we are trying to 
build.
    The question of the bottom line is very important to us. Do 
we think about it in exactly the same terms? No, but for this 
Department, the business of installation is a $56 billion 
business as represented by the President's budget this year. 
Everything from services to environmental remediation to 
construction activity to operations and maintenance, it is a 
$56 billion enterprise.
    The objective of improving the military capability and 
readiness of those assets, improving their efficiency, returns 
funds to the bottom line that can then be put on people, on 
training, on military readiness, on procurement.
    Ms. Norton. But does it? When you say funds, it goes to the 
Treasury.
    Mr. Grone. No. Our ability to avoid costs in the future, 
our ability to have a more efficient, more effective, better 
asset base that is managed, to the extent that we can reduce 
our total operating costs, those are funds that we can then in 
subsequent budgets put to better effect on military readiness. 
For us, the bottom line, it is not the bottom of a P and L 
sheet, a profit and loss statement, but it is the ability to 
return funds to the warfighter for readiness purposes.
    Reducing the total operating costs of that support 
infrastructure, that $56 billion enterprise, making it more 
efficient, the motivator for us is more efficient, more 
effective facilities that can deliver military readiness for 
the warfighter. As we are looking for areas where we can save 
funds, make ourselves more efficient, we are doing it with that 
objective. It is a different objective than a private sector 
enterprise has, but it is an objective nonetheless, and it is 
one we take very seriously.
    Ms. Norton. It is an important objective. There is a 
difference in kind, but it is important.
    Mr. Grone. I think it is important for the Subcommittee to 
understand why, what motivates our management model, and that 
is in large measure what motivates our management model.
    Ms. Norton. Why is it that GSA and the Defense Logistics 
Agency are continually apparently, according to our 
investigation, to supply Federal customers with inefficient as 
well as efficient energy-using products? I mean both are 
happening.
    What determines whether you purchase an efficient energy-
using product for your customers or an inefficient one?
    Mr. Winstead. Well, Madam Chair, both at GSA on the FAS 
side as well as the PBS side--obviously, I have mentioned 
mostly on the building side--but FAS, I know that there have 
been some issues in some of the products in terms of their 
energy sustainability.
    Ms. Norton. Is there a cost matter? Do you always buy 
energy efficient products for your customers? Our information 
is that is not the case.
    All we are trying to find out is what determines it. Is it 
budgetary? Who gets to make these decisions?
    Mr. Winstead. Well, from the standpoint of the client, on 
the FAS obviously, the purchase of scheduled cleaning equipment 
and materials, actually that decision is a client-driven 
decision.
    Ms. Norton. That is my point. Clients don't know anything. 
Clients, obviously, will look to GSA for guidance. Clients will 
come in and say, I need X, Y, Z equipment. They only know the 
kind of equipment they have now.
    Unless somebody who knows the state of the art says, but 
that is not the most energy efficient equipment, therefore we 
recommend this other equipment, he is going to continue to 
order whatever he has got at hand.
    Mr. Winstead. Right. It is my understand, Madam Chair, that 
we are, in fact, changing the schedules and putting the ENERGY 
STAR products up at the top. So that is something that is 
underway.
    Ms. Norton. So why are the others on it at all, sir?
    Mr. Winstead. Well, I think they are on it because of the 
vendors obviously getting on FAS schedules and wanting to 
market their products.
    Ms. Norton. What does that have to do with us if we are 
supposed to be buying ENERGY STAR products?
    Mr. Winstead. I understand totally. I mean we are trying to 
move the sustainable energy-sensitive products, and that is my 
understanding of what we are doing on the FAS side. We are 
moving.
    Ms. Norton. Mr. Grone, at least that is our understanding, 
that both kinds are there. If you can have your druthers and 
you don't have any information, then you may end up choosing. 
You, the client. You, the customer. We are all one big happy 
Federal Government on the taxpayer dollar choosing the energy 
inefficient.
    You may do it for the same reason you do it if you go to 
buy something at a store. You say, oh, well, that looks like it 
is cheaper, so why don't I buy that?
    Why should we have on any list anything but ENERGY STAR 
equipment?
    Mr. Grone. Well, Madam Chair, the Defense Logistics Agency 
doesn't come under my direct purview. What I would like to do 
is go back and consult with General Dail, the Director of DLA, 
and then come back and provide information for the record or a 
briefing to staff or to yourself about we think about that and 
how they manage it.
    Ms. Norton. I would appreciate it.
    Mr. Grone. I would be perfectly happy to go back and 
consult with General Dail and bring that forward to you.
    Ms. Norton. I very much appreciate receiving that 
information within 30 days. Remember, we are trying to use your 
own practices in developing practices here.
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Winstead. I will get you a list, Madam Chair, of those 
products.
    Ms. Norton. Say that again, Mr. Winstead.
    Mr. Winstead. The products, the ENERGY STAR and energy-
sensitive products, I will get to you a list of how we are 
pushing them up in the head of this.
    Ms. Norton. Yes, and would you get to me an understanding 
of why any other products are on the list? Is there a big 
difference in cost or something?
    Now you have testified here about what the savings is. So I 
don't know why the others wouldn't say, guess what, unless you 
get to be like these ENERGY STAR people, you have no preference 
to be on our list.
    That is a very valuable list to be on. How do you get on 
the list especially given that is what the guidelines and what 
the Executive Order says you are supposed to do?
    How can we have a policy to use ENERGY STAR and yet you can 
get on the GSA list? I am not sure about the Defense Logistics 
Agency except our information is that both have both kinds on 
the list
    Mr. Winstead. Again, this is something we are now focusing 
on. David Bibb, our Administrator, is looking at it. My 
understanding is within the next four months we are going to 
have them, and I will get back to your question of how the 
other products end up on the schedule. I mean I assume it is 
some contract.
    Ms. Norton. Would you within 30 days tell us?
    Mr. Winstead. Sure.
    Ms. Norton. Give us any reason other products should be on 
it.
    Now, here, let me help you out. The only reason I can think 
of is you have got some old something here, if you have got 
some old piece of equipment that will only take a non-ENERGY 
STAR piece of equipment. I didn't think it worked that way, but 
maybe that is why you have to have the other on the list.
    Mr. Winstead. Yes, replacement parts for older equipment 
would be the case.
    Mr. Grone. Or in some cases, Madam Chair, there may be 
other performance criteria that can only be satisfied 
conceivably by a product that is less energy-efficient. So it 
would be a balancing question.
    Ms. Norton. What would that be? Give me an example of what 
that would be?
    Mr. Grone. There could be a militarily unique product, that 
performance characteristics are either in terms of power 
delivered or whatever.
    Ms. Norton. That is interesting because I always thought 
that the ENERGY STAR also improved performance.
    Mr. Grone. If you are looking at the question narrowly as a 
question of energy consumption and the product from that 
perspective, that will lead you perhaps to that conclusion. But 
there may be occasionally products, and we will go back and 
take a look at this to see if we can illuminate on it, but 
there will be occasionally products where other performance 
characteristics are more important in terms of a mission 
delivery or a capability than that.
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Grone. That said, we are trying to, as a Department, 
across the tactical and non-tactical areas do everything we can 
to embed energy efficiency into the method of getting that 
improved performance, so we can get to the objective that you 
have described, but in terms of the existing list, that could 
be one of the answers.
    Ms. Norton. Mr. Winstead, on page 17 of your testimony, you 
mention something that seems to be at odds with some of your 
answers here. You say, you talk about needing flexibility in 
capital projects to incorporate energy savings technology that 
was not included in the design at the time the prospectus was 
submitted.
    I thought you said that you are incorporating these 
matters. I would expect that to be in the prospectus. Do you 
mean you perhaps have to come back and what do you mean by 
flexibility?
    Mr. Winstead. I think flexibility in terms of the various 
options and systems. The P100 sets the standards for 
performance in new buildings, but I think the flexibility is 
how do we address that. Obviously, climate matters. In San 
Francisco, you can have an unair-conditioned/heated building. 
In Washington, you obviously have to have both.
    Ms. Norton. Because if you need the flexibility, you are 
talking to the Subcommittee that would be prepared to build 
that flexibility into prospectuses if you can show that there 
would be energy savings results.
    Mr. Winstead. That is correct and whether there was some 
new technology after the submittal as well. I mean is there 
something more efficient than what was originally scoped out.
    Ms. Norton. Within 30 days, please get us information on 
how we can make sure the prospectuses are not behind the time 
because you do submit a prospectus.
    Mr. Winstead. Okay.
    Ms. Norton. I don't know. You submit a prospectus for the 
new headquarters.
    Mr. Winstead. Right.
    Ms. Norton. For the DHS, the Coast Guard, that must have 
been five years ago. Anyway, it was a long time ago. We 
certainly wouldn't want to be frozen in time if all it took 
were some changes in the prospectus or, in the alternative, 
building in some flexibility.
    I would like to ask you about so-called delegated 
buildings, buildings that you don't manage, but you delegate it 
to the agency. What do you do to assure that these buildings, 
which are completely under the management of the agency, are 
not dealing with energy consumption above the benchmark? What 
do you do if they are?
    How do you monitor such delegated buildings?
    Mr. Winstead. Actually, both in terms of our delegation 
when we do delegate, in Washington, NCR has a lot of single 
tenant delegated buildings, much more so than any place else in 
our portfolio. Within those delegations, there are guidelines 
to the standard operating procedures that ensure that they are 
following energy management and conservation plans to achieve 
the Federal mandates in the new bill, both the executive order 
and the energy policy.
    Ms. Norton. How do make sure it happens? What is the 
enforcement mechanism? You have given it over to the agency.
    Mr. Winstead. Right. We do require the delegated agencies 
to be accountable for what they have done under the implemented 
guidelines; also, the Department of Energy.
    Ms. Norton. How often do they report back? You see I am 
looking for mechanisms that are above policy. The policies are 
in place.
    Mr. Winstead. They report back annually.
    Madam Chair, you are well aware, I think, that the GAO 
recently did a review of delegated buildings, and we are now 
tightening up our review overall of performance under our 
delegations to our GSA standards. I think in terms of their 
energy performance, we are and will continue to scrutinize how 
they are managing their energy costs that are consistent with 
what we are trying to do in the non-delegated part of the 
portfolio.
    I think the SOP actually lays out the guidelines, and we 
are reviewing them annually, and we are going to be heightening 
the scrutiny for at least delegations.
    Ms. Norton. I know if it is single tenant building, the 
custom is to delegate it. That is just all away from you 
altogether. What percentage of your buildings are delegated 
buildings, Mr. Winstead?
    Mr. Winstead. Madam Chair, I don't know the exact, but it 
is basically dominant. It is basically 200 buildings out of our 
1,500. So what is that? Seven percent or so.
    Ms. Norton. They are big ones like Ronald Reagan, I guess. 
Is Ronald Reagan such a building or is that your building?
    Mr. Winstead. Multi-tenanted building, it is our building 
but the Department of Agriculture.
    Ms. Norton. USDA would be such a building.
    Mr. Winstead. Sorry.
    Ms. Norton. USDA would be such a building.
    Mr. Winstead. Yes, USDA is such a building.
    Ms. Norton. I am interested in your getting a hold of them 
as a matter of performance and not merely as a matter of 
policy, and I am interested in working with you. We are 
interested in making easier for you to do as we codify what 
should be.
    I think, Mr. Grone, you could be. I often find the military 
has found ways to do things that are helpful on the civilian 
side, and I was intrigued by the so-called awareness program 
for military housing. You have all these military bases strewn 
all over the world. You have military housing, millions of 
people in them. You have got hospital facilities. I mean you 
are a country unto yourself.
    Tell us about this awareness program, particularly since we 
are interested in changing the culture.
    Mr. Grone. Well, the awareness programs that the various 
components run are a critical and ongoing process where our 
people are informed about the need to conserve, how to 
conserve. In many cases, they are tied back to specific 
programs.
    Ms. Norton. If somebody lives in military housing, is that 
soldier, let us say, he and his family, responsible for all the 
utilities that are used? He pays for it or does DOD pay for it?
    Mr. Grone. In our military housing that has been 
privatized, utilities are built into the lease arrangement. So 
in that sense the member does pay utilities.
    Ms. Norton. That helps.
    Mr. Grone. Traditionally, in military family housing, 
members did not pay lease payments or care for utilities or the 
like, and the classic free rider problem, economic free rider 
problem often occurred. In our privatized housing in the end 
state, we will have well in excess of 90 percent of our 
military family housing privatized.
    Ms. Norton. Ninety percent is now privatized?
    Mr. Grone. I will have to get the current number for the 
record, but in the end state, we will be in the 95, 96 percent 
range.
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. End state, you said?
    Mr. Grone. In the end state, yes, when we are completed 
with the program.
    The sensitivity to utilities and utility management and as 
we privatize those projects, as we privatize those assets, I 
know it was a question I know of some interest to you and the 
staff had raised it as well. How do we think about that?
    Each of the services, when we go out and think about the 
privatization of a military family housing area, sets some 
basic standards and guidelines into their request for proposals 
and how they want to think about that. In many cases, the local 
municipalities and utility companies and the District of 
Columbia may do something similar, but they often have baseline 
compliance requirements for energy management in new projects 
or development projects.
    In the procurement process the components give, we try not 
to be too specific to bind the hands of innovation, but there 
are credits that are given in the assessment process of the bid 
proposals when they come in for energy compliance, 
conservation, innovation to the point where the classic and 
best example of this and the headline example of this is the 
Army's family housing privatization project in Hawaii which is 
the largest demonstrated use of solar ray in a housing 
development in the world.
    Five thousand units of housing all with photovoltaic laid 
down, and that saves several thousand tons of carbon emissions 
a year. I believe the number is 10,000, but we can get that for 
the record, on an annual basis. So it is a fairly significant 
effort in our housing privatization projects.
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Grone. Again, we are trying to incentivize the 
contractor base, the development base. As they bring these 
projects forward, they are incentivized to bring the best 
innovation and practice. Not a mil spec answer, what should the 
answer be, but we are relying on our private partners through 
incentives in the bid proposal process to bring us projects 
that rely on the best of private practice and the best 
innovation that is available to us at the time that we do the 
procurement.
    Ms. Norton. One last question, Mr. Stanley, from your 
testimony, I am not sure I understand how the municipal 
aggregation program works. You speak about it being a reverse 
online auction for electricity procurement. Could you explain 
that to us, please?
    Mr. Stanley. Sure. There are a number of different ways of 
procuring electricity. For most D.C. residents, you procure 
electricity through what is called a standard offer service.
    Ms. Norton. Speak up into that microphone.
    Mr. Stanley. I apologize.
    Ms. Norton. It is not your fault. Something is wrong with 
these microphones. It couldn't be that 100 percent of the 
people who testify before us have the same problem. It is on 
our end. So, go ahead.
    Mr. Stanley. There are a number of ways of procuring 
electricity in the District of Columbia. For most District 
residents, electricity is procured through the local utility 
provider through what is called a standard offer service. By 
contrast, what the District of Columbia has done is it has 
aggregated all of its electricity use and it has put out for 
bid a request, well, a request for bids for providing utilities 
to the District of Columbia.
    What happens is that a number of providers will then submit 
bids to the District of Columbia and what has resulted is that 
we are now in a situation where we stand to save about $30 
million over 3 years because we are not doing a standard offer 
service procurement but instead we have put it out for bid. It 
has been a significant value for the District of Columbia.
    We have been less successful in being able to provide that 
same type of service on the residential side, but we are 
working very hard to find a way of making sure that not only 
District Government benefits but also non-profit agencies 
within the District of Columbia as well as residences also.
    I am not sure if that helps to clarify it a little bit 
better.
    Ms. Norton. It does.
    Mr. Winstead, you are obviously serviced through local 
municipal power companies as well, isn't that right?
    Mr. Winstead. That is correct. We have about 104 area-wide 
utility contracts, and we also have reverse online procurement 
for electricity in deregulated markets. So we have both 
somewhat what the District is doing as well as about 104 
contracts.
    Ms. Norton. Well, I want to thank all four of you for 
really very helpful testimony as we try to do think through 
what to do.
    We are not going to prescribe in statute what to do. We are 
going to delegate to the GSA the framework for a mechanism to 
both incentivize and enforce best practices in energy 
conservation, and you have been immensely helpful, all four of 
you, in providing a basis for the statutory guidance we are 
working on as we speak.
    Thank you very much for attending.
    [Whereupon, at 12:17 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    

</pre></body></html>
